HHS/OIG, Audit - "Review of Postretirement Benefit Costs Claimed for Blue
Cross Blue Shield of South Carolina for Fiscal Years 2000 Through 2004,"
(A-07-07-00230)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Postretirement
Benefit Costs Claimed for Blue Cross Blue Shield of South Carolina for Fiscal
Years 2000 Through 2004," (A-07-07-00230)
February 25, 2008
Complete Text of Report is available in PDF format (971 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the
allowability of South Carolinas post retirement benefit (PRB) costs claimed for
Medicare reimbursement for fiscal years (FY) 2000 through 2004.  We found that South Carolina underclaimed $180,720 of
accrued PRB costs for Medicare reimbursement for FYs 2000 through 2004.  We
recommended that South Carolina revise its Final Administrative Cost Proposals for
FYs 2000 through 2004 to increase its claimed PRB costs by $180,720and claim
future PRB costs in accordance with the Medicare contract.  South Carolina did
not completely concur with our recommendations.